CERTIFICATE OF SERVICE
I, Nicole Berner, hereby certify that I am a member in good standing of the Bar of this
Court and that on this 3rd day of September, 2021, I caused 1 unbound and 40 bound copies of
the foregoing Brief of Amici Curiae Service Employees International Union, et al., in Support of
Respondent, to be sent via courier delivery to the U.S. Supreme Court and 3 copies to be sent via
Next Day Service and e-mail to the following parties listed below:
Brian H. Fletcher
Acting Solicitor General
United States Dep’t of Justice
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
Counsel for Petitioner
Hermann Ferre
Curtis, Mallet-Prevost, Colt and Mosle LLP
101 Park Ave.
New York, NY 10178
Counsel for Respondent
Isabel Abislaiman
Isabel Abislaiman Law Offices
252 Calle Cruz
Suite 101
San Juan, PR 00901
Counsel for Plaintiff in Ruiz-Aviles v. SSA et al.
Dwyer Stenquist Arce
Kutak Rock LLP
1650 Farnam Street
The Omaha Building
Omaha, NE 68102
Counsel for Virgin Islands Bar Association
Manuel Del Valle
Interamerican Institute for Constitutional Rights
Urb. Industrial Calle Frederico Costa #170
Interamerican School of Law
Hato Rey, PR 00918-1303
Counsel for the Interamerican Institute for Constitutional Rights

Jose A. Hernandez-Mayoral
Hernandez Mayoral Law Offices
206 Tetuan
Suite 702
San Juan, PR 00901
Counsel for Carlos Delgado Altieri, Mayor of the Municipality of Isabela, Puerto Rico
Gregorio Igartua
Box 3911
Aguadilla, PR 00605
Counsel for Gregorio Igartua
Carlos Lugo-Fiol
P.O. Box 260150
San Juan, PR 00926
Counsel for the Commonwealth of Puerto Rico
Kathleen Marie Sullivan
Quinn Emanuel Urquhart & Sullivan, LLP
51 Madison Ave., 22nd Floor
New York, NY 10010
Counsel for Plaintiffs in Peña Martínez v. U.S. Department of Health and Human Services
All parties required to be served have been served.

_______________________________
Nicole G. Berner
Counsel of Record
Service Employees International Union
1800 Massachusetts Avenue NW
Washington, D.C. 20036
(202) 730-7466
September 3, 2021

